Audit Report

Office of Justice Programs
Grants Awarded to the Oglala Sioux Tribe, Pine Ridge, South Dakota

Report No. GR-60-05-004


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to the Oglala Sioux Tribe (OST), Pine Ridge, South Dakota.  Our audit included Grant Nos. 2002-IP-BX-0002, 2002-VR-GX-0011, 1995-WI-NX-0007, and 2002-TY-FX-0002.  The purpose of each award respectively was to:  
1) build a correctional facility on tribal lands, 2) provide assistance to victims of crime, 3) stop violence against Indian women, and 4) prevent crime and delinquency by and against tribal youth.   

We tested the OSTs accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  As of July 14, 2004, the OST had been reimbursed $9,313,863 of the $14,143,064 grant funds awarded. 

Our audit revealed that the OST claimed and was reimbursed for unallowable and unsupported costs.  We found that: 1) grant drawdowns exceeded immediate needs; 2) the OST did not meet its matching requirements; and 3) required reports were not always accurate or submitted timely.  Based on the deficiencies listed below, we identified dollar-related findings totaling $1,046,176, or 7.4 percent, of the $14,143,064 total grant funds awarded.1   Specifically, we found:

The OST was reimbursed $803,326 for costs charged to the grants that were either not supported by adequate documentation or were not allowable.  We also identified $234,441 in funds to better use related to unobligated grant funds and fees paid to contractors.  
		
		The OST received drawdowns of grant funds in excess of its immediate disbursement requirements, resulting in $2,970 in imputed interest charges. 

		The OST did not provide supporting documentation for its matching requirements, resulting in a questioned excess federal share of $5,439.  

		Financial Status Reports (FSRs) and progress reports were not always submitted or submitted timely for all grants. 

		FSRs were not always accurate for all grants.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.